November 23, 2020
Writer’s Direct Contact
(202) 220-1107
(213) 683-5112 FAX
Ginger.Anders@mto.com

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

United States v. Tsarnaev, No. 20-443

Dear Mr. Harris:
I am writing on behalf of respondent in the above-referenced case to request an extension
of time of 30 days, to and including Wednesday, January 6, 2021, for the filing of a brief in
opposition to the petition for a writ of certiorari. Absent an extension, the brief would be due on
Monday, December 7, 2020. This is the second extension respondent has sought. Petitioner
opposes this request. To accommodate the government’s stated interest in avoiding further
delay, respondent will not seek any subsequent extension if this one is granted.
The extension is necessary because of the press of other matters with proximate due
dates. Counsel of record, Ginger Anders, has commitments that include: (1) briefs in opposition
in Republican Party of Pennsylvania v. Boockvar, No. 20-542, and Scarnati v. Pennsylvania
Democratic Party, No. 20-574, due on November 25, 2020, and November 30, 2020,
respectively; (2) a brief in opposition to certiorari on behalf of several financial institutions, due
on November 27, 2020; (3) an amicus brief in support of petitioners in United States v. Arthrex,
Nos. 19-1434, 19-1452, 19-1458, due on December 2, 2020; (4) a reply in support of certiorari in
Johnson v. Precythe, No. 20-287 (capital case), due on November 23, 2020; and (5) a reply in

November 23, 2020
Page 2
support of a motion to dismiss in Ambac Assurance Co. v. Financial Oversight and Management
Board for Puerto Rico, Adv. Proc. No. 20-00068-LTS (No. 17 BK 3283-LTS) (D.P.R.), due on
November 23, 2020. In addition, in In the Matter of the Federal Bureau of Prisons’ Execution
Protocol Cases, No. 19-mc-145 (D.D.C.), Ms. Anders is lead counsel to Brandon Bernard, a
federal death row inmate whose execution is scheduled for December 10, 2020. Extensive
litigation is expected in that case between now and December 10.
In addition, Deirdre von Dornum has had numerous other commitments this month,
including serving as lead counsel for the defense in United States v. Alonzo Shipp, 19 Cr. 29
(RPK) (E.D.N.Y.). She was in trial from November 9 through November 18, after extensive
motion practice beginning in early October. Daniel Habib’s commitments include a reply brief
in United States v. Graham, No. 20-888 (2d Cir.), due on December 4, 2020. In addition, since
September, Mr. Habib has been responsible for assisting his young daughter, who is enrolled in
the New York City public school system, with full-time remote learning due to COVID-19.
The government’s opposition to this second 30-day extension is evidently based on its
preference that the petition be conferenced in time for this Court, should it grant review, to hear
and decide the case this Term. 20-443 Pet. 33. It is true that granting this extension would push
the filing of the opposition past the December cut-off date, such that if the Court were to grant
certiorari, its decision on the merits might be issued approximately six months later than if the
extension were not granted.
The government, however, has not identified any concrete interest that would be
prejudiced by that brief delay. The First Circuit’s decision does not create any uncertainty about
respondent’s guilt or the fact that he will remain in prison for the rest of his life: although the
First Circuit vacated respondent’s death sentence, it also affirmed 27 of his 30 convictions and
the life sentences associated with them. To the extent that the government is concerned that
proceedings in this Court will delay any new penalty trial—the government observes that a new
sentencing proceeding “would be at least eight years removed from the events,” Pet. 32-33—the
additional months in question are a small part of the total time that has elapsed since the
offenses, which occurred in 2013. The vast majority of that time is attributable to the normal
course of trial and appellate proceedings. It is difficult to see how six months would make an
appreciable difference with respect to the availability of evidence or witness memories. If the
government had significant concerns about the effect of another few months on its ability to
obtain a death sentence in any retrial, it could have proceeded directly to that retrial, rather than
seeking certiorari. The government also could have moved to expedite the certiorari briefing, but
it did not do so.
The government’s insistence on haste is particularly unwarranted in this case. Appellate
proceedings in this extremely complex case took over four years, and involved over 1000 pages
of briefing and 50,000 pages of appendices. Counsel of record joined respondent’s legal team at
the certiorari stage, and has required substantial time to familiarize herself with the record.

November 23, 2020
Page 3
Preparing an opposition to certiorari in a capital case, particularly one with such an extensive
record, is a substantial endeavor. Indeed, when the government is in the position of opposing
certiorari in capital cases on direct review, it often seeks multiple extensions. That practice
underscores the care and attention required to prepare a brief in opposition in a capital case.
Respondent therefore respectfully requests a 30-day extension of time in which to file his
brief in opposition. To accommodate the government’s stated interest in avoiding further delay,
respondent will not seek any subsequent extension.
Thank you very much for your time and assistance on this matter.

Very truly yours,

Ginger D. Anders
cc: All counsel
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Deirdre D. von Dornum
Daniel Habib
Federal Defenders of New York, Inc.
52 Duane Street, 10th Floor
New York, NY 10007

